EXHIBIT A

':.

,;~
~,-~

_ ~~

.
{Is.'tkF .~'~

~u~~emce ~ou~t
STATE Or ARIZONA
ROBERT BRUTINEL
Chief dlls[ICe

nx~zoNa STArc w[mTs nmLmnc
1501 WEST WASHINGTON STA¢ET,SUITE 402
PHOENIX,ARIZONA 85007
TELCPRONE:(602)452-3396

JANET JOHNSON
CI¢rk of f11e CoUYt

April 3, 2020

RE:

LINDA SWAIN et al v BIXBY VILLAGE et al
Arizona Supreme Court No. CV-19-0255-PR
Court of Appeals, Division One No. 1 CA-CV 18-0397
Maricopa County Superior Court No. CV2014-051035

GREETINGS:
The following action was taken by the Supreme Court of the State
of Arizona on April 3, 2020, in regard to the above-referenced
cause:
ORDERED: Petition £or Review =DENIED.
FURTHER ORDERED: Request for Attorneys' Fees and Costs
(Appellants Bixby Village et al) =DENIED.
FURTHER ORDERED: Request for Attorneys' Fees and Costs
(Appellees Swain et al) = GRANTED.
Janet Johnson, Clerk

TO:
Timothy H Barnes
Daniel D Maynard
Douglas C Erickson
Chris R Baniszewski
Amy M Wood
ga

EX~IIBIT B

IN THE

ARIZONA COURT OF APPEALS
DIVdSdOA:ONE

LINDA W.SWAIN,et al., Plaintiffs/Appellees,
v.
BIXBY VILLAGE GOLF COURSE INC,et al., Defendants/Appellants.
No.1 CA-CV 18-0397
FTT.F.T~ 9-19-7M9
Appeal from the Superior Court in Maricopa County
No. CV2014-051035
The Honorable John R. Hannah,Judge
AFFIRMED
COUNSEL
Timothy H. Barnes PC,Phoenix
By Timothy H. Barnes
Counselfor Plaintiffs/Appellees/Counter-Defendants
Maynard, Cronin, Erickson, Curran &Reiter PLC,Phoenix
By Daniel D. Maynard
Counselfor Defendants/Appellants
Warner, Angle, Hallam,Jackson & Formanel< PLC,Phoeiux
By Chris R. Baniszewsl<i
Counselfor Defendant/Appellant/Counter-Claimant

SWAIN,et al. v. BIXBY VILLAGE,et al.
Opinion of the Court

OPINION
Presiding Judge Randall M. Howe delivered the opinion of the Court, in
which Judge Jennifer M.Perkins and Judge David D. Weinzweig joined.

H O W E,Judge:
¶1
TTLC Ahwatukee Lakes Investors, LLC ("TTLC") appeals a
final judgment granting a permanent injunction enforcing a covenant
requiring the operating of a golf course on particular property. TTLC
contends, among other arguments, that because the covenant was
restrictive rather than affirmative, it should be interpreted to permit, but
not require, the operating of a golf course on the property in question.
¶2
The Arizona Supreme Court has made clear in Powell v.
Washburn, 211 Ariz. 553 (2006), however, that whether a covenant is
deemed restrictive or affirmative, it must be interpreted according to its
enactors' intent. In this case,the circumstances surrounding the creation of
the covenant and the covenant's language demonstrate that its enactors
intended to require the operation of a golf course on the property. Because
this Court rejects TTLC's argument and the other arguments discussed
below, this Court affirms the trial court's ruling granting the injunction.
FACTS AND PROCEDURAL HISTORY
¶3
Ahwatukee is a "master planned community' in Phoenix,
Arizona, composed of some 5,200 homes built around the Ahwatukee
Country Club Golf Course and the now-closed Ahwatukee Lakes Golf
Course. Several of the homes either border or feature prominent views of
at least one of the golf courses. Linda W.Swain and Eileen T. Breslin each
own property abutting the Lakes Golf Course.
¶4
Chicago Title Agency of Arizona, Inc.(the "Declarant"), was
the original owner of the Lal<es Golf Course and at some point, acquired the
Country Club Golf Course. In 1986, it recorded a deed restriction on the
Lakes Golf Course. The deed restriction was made "pursuant to A.R.S.

2

SWAIN,et al. v. BIXBY VILLAGE,et al.
Opinion of the Court
§ 42-125.01 11, restricting the use of [the] property to use as a golf course,
facilities, and improvements thereto, for ten (10) years[.]" The restriction
further recited that it could be "amended,revoked or extended for any time
at the discretion of the then owner of the property,subject to the provisions
of A.R.S. § 42-125.01." Pursuant to this provision, the Declarant recorded
two amendments to the deed restriction. The First Amendment extended
the deed restrictions term one more year and the Second Amendment
extended it five more years.
¶5
In November 1992, the Declarant recorded a Declaration of
Covenants, Conditions, Restrictions and Easements covering both golf
courses. The Declaration restated the 1986 deed restriction, along with the
First and Second Amendments. It also stated that the Covenants,
Conditions, and Restrictions ("CC&Rs') were established for the mutual
benefit of the "Declarant and all present and future owners' and "any
owner of property located within the Ahwatukee master planned
community"—the "Benefitted Persons." It stated that "[b]y recording [the]
Declaration, the Declarant intends to comply with the requirements and
obtain the benefits of Arizona Revised Statute 42-146"—a tax valuation
statute that applied a special valuation method to any property that
constituted a "golf course." The Declaration provided that the property
could be developed for purposes other than a golf course only if 51% of the
5,200 Ahwatukee homeowners approved of removing the deed restriction
or if a court found a "material change in conditions or circumstances' that
justified removing the restriction.
¶6
In June 2006, Bixby Village Golf Course, Inc.—with Wilson
Gee as its president—and a group of investors purchased both golf courses
for $5.6 million. Around this same time, Bixby leased the two properties to
Ahwatukee Golf Properties,LLC("AGP")— a limited liability company Gee
and his wife owned. The lease agreement required AGP to operate the golf
courses. It also provided, however, that Gee would receive a 30% bonus
share of any net proceeds if the Lakes Golf Course sold for more than $4.2
million. With an eye to redeveloping the Lalces Golf Course, Gee met with
the umbrella homeowner association for the Ahwatukee master-planned
community —the Ahwatulcee Board of Management("ABM")— in fa112008,
and with a Phoenix City Councilman the following year.

1
In 1987, A.R.S. ~ 42-125.01 was renumbered to A.R.S. § 42-146.1987
Ariz. Sess. Laws,ch. 134,§ 20. In 1997, section 42-146 was repealed and its
substance was moved to A.R.S. ~§42-13151 through -13154.1997 Ariz.Sess.
Laws,ch. 150,§ 172.
3

SWAIN,et al. v. BIXBY VILLAGE,et al.
Opinion of the Court
¶7
In May 2013, Bixby closed and dismantled the Lal<es Golf
Course. It placed abarbed-wire fence around the perimeter, drained the
likes, shut off all power, stripped the sod off the greens, and removed
hundreds of irrigation heads. Because of these actions, Swain and Breslin
sued Bixby in October 2014, claiming that closing the course violated the
CC&Rs.
~(8
While the lawsuit was pending, Bixby entered a contract to
sell the Lal<es Golf Course property to TTLC in March 2015. The contract
conditioned the sale on the successful completion of a feasibility study into
converting the golf course property to a residential community.Satisfied by
its study,TTLC completed the transaction in June 2015,buying the property
for $9 million, the value it placed on the property without the deed
restriction. Under the terms of the contract, TTLC paid Bixby a $750,000
down payment and executed anon-recourse promissory note,promising to
pay Bixby the remaining $8.25 million on the earlier of June 19,2018, or 90
days "after Final Approval by the City of the Final Plat of the Real
Property." The parties negotiated anon-recourse loan to protect TTLCfrom
any substantial monetary liability if the deed restriction was not removed.
The contract aclalowledged that Bixby had stopped using the property as a
golf course and that a lawsuit about that decision was pending.
¶9
Thereafter, Swain, Breslin, and Bixby stipulated to dismiss
Bixby from the case. The trial court consequently dismissed all claims
against Bixby—except for an attorneys' fees claim—without prejudice.
Swain and Breslin then amended their complaint to name TTLC as the
defendant and to add claims for injunctive relief, breach of contract, and
breach of the covenant of good faith and fair dealing.
¶10
TTLC immediately moved for summary judgment, asserting
that the Declaration did not require the owner of the Lakes Golf Course to
affirmatively operate a golf course on the property. Swain and Breslin
opposed the motion and cross-moved for partial summary judgment,
countering that the Declaration did require a golf course. At the hearing on
the motions, TTLC not only reiterated its argument that the Declarations
plain language did not require it to operate a golf course, but added that
interpreting the Declaration's language to so require would violate the
Thirteenth Amendment's prohibition against slavery. The court denied
TTLCs motion and granted Swain and Breslinscross-motion,finding that
the Declaration requires the operation of a golf course for the benefit of
those the Declaration described as Benefitted Persons and that the covenant
did not violate the Thirteenth Amendment. The court also ruled that it

G!

SWAIN,et al. v. BIXBY VILLAGE,et al.
Opinion of the Court
would conduct an evidentiary hearing to determine whether injunctive
relief was appropriate.
¶11
Meanwhile, having failed to persuade the court to accept its
interpretation of the Declaration,TTLC sought to persuade the Ahwatukee
homeowners to modify the Declaration to eliminate the golf course
requirement. TTLC proposed eliminating the golf course and redeveloping
the property into "a residential community' with "30 percent open space'
and "a community supported farm in conjunction with [a] school." TTLC
launched a "CC&R amendment campaign' to convince the Benefitted
Persons to accept the plan. It sent multiple mailings, distributed fliers, held
outdoor events, and hired "professional door knockers." After
campaigning for nearly two years, however,TTLC obtained approval from
only 28 percent of the homeowners,far short of the 51 percent necessary.
¶12
Having failed to persuade the Ahwatul<ee homeowners to
modify the Declaration, TTLC returned to court, filing a counterclaim
alleging that it was entitled under Paragraph 6 of the CC&Rs to petition the
Maricopa County Superior Court to modify the Declaration if "a material
change in conditions or circumstances' to the property had occurred. It
argued that such a change had occurred because maintaining astand-alone
golf course would not be profitable. It also argued that it had the discretion
to decide whether a material change had occurred and that, in its exercise
of that discretion, it would build a new residential community and a 9-hole
par 3 golf course on the former Ahwatul<ee Lakes Golf Course.
¶13
The court held an evidentiary hearing to determine whether
injunctive relief was appropriate and whether TTLC was entitled to have
the Declaration modified to remove the covenant. During the hearing, the
court heard testimony from several witnesses about the condition of the
property and feasibility of operating a golf course on it. The court also
received several exhibits, showing the once lush green landscape of the
property now barren with overgrown weeds.
¶14
TTLC's expert asserted that restoring the golf course on the
subject property would cost at least $14 million, with no certainty of ever
making a profit. Swain and Breslins expert,Buddie Johnson, disagreed. He
testified that restoration would cost between $4 million and $6 million and
that, based on the areas demographics, a shorter, less difficult "executive'
golf course was highly likely to prosper. He explained that the property was
in a "highly feasiUle enviroxunent" and was a "perfect site'for an executive
golf course. He elaborated that the site was amid a "dense affluent

SWAIN,et al, v. BIXBY VILLAGE,et al.
Opinion of the Court
population' that would have "very easy and quick access to the golf
course."
¶15
Johnson added that the golf course "should not have failed"
under Bixby's control; it failed only because it was "very poorly operated"
and "not appropriately marketed[.]" He noted that, in the last two and a
half years, at least five "substantial [and] capable' buyers had expressed a
"strong interest" to him in purchasing the Lakes Golf Course property as a
stand-alone golf course.
¶16
Swain and Breslin also testified. Swain testified that she had
bought her home because it "overlooked a lush green fairway and had a
view of the Superstition Mountains Ind Four Peaks." She also testified that,
at the time,"[t]here was a $26,000 premium" on the lot that she purchased
because it "had a beautiful view." She recounted how that the Lakes Golf
Course had progressively deteriorated in appearance since 2006; the grass
had withered and died, and the lakes became so drained that the wildlife
began to perish. She explained further the property began emitting an
"overwhelming" stench. She also noted that the condition of the property
was "very upsetting' to her and her neighbors because they had "put their
money into their dream retirement home' and they were now seeing the
property "deteriorating" and "looking at that view from a chain link fence."
¶17
Breslin testified that she was aware of the CC&Rs when she
had purchased her home.She also recalled Gee,in 2008,"proposing to build
some more housing developments in the area." She further recalled the day
that the Lakes Golf Course was "finished off," describing it as "a very sad
day because they put up these horrible chain link fences and it felt like we
were in prison." She also noted that the condition of the property had
worsened since the golf course's closing. She described the once-illustrious
property behind her home as a dead, desolate "wasteland."
¶18
In May 2018, the trial court declared that TTLC was not
entitled to modify the Declarations deed restriction and entered a
mandatory injunction ordering TTLC to restore and operate a golf course
on the property. The court found that TTLC had breached both the CC&Rs
and the implied covenant of good faith and fair dealing,"which required
[it] to not impair the rights of the other to receive benefits of the agreement."
The court further found that by accepting fee title to the property, TTLC
had bound itself to comply with the Declarations provisions. The court
noted in addition that TTLC's determination of a "material change' was not
binding or entitled to deference. The court found that the evidence did not
show that Bixby was unable to operate the golf course profitably, with

C7

SWAIN,et al, v. BIXBY VILLAGE,et al.
Opinion of the Court
adequate maintenance, at any point in time before it closed the course.
TTLC timely appealed.
DISCUSSION
1. Interpretation of the 1992 Deed Restriction
¶19
TTLC argues that the trial court erred in granting Swain and
Breslins cross-motion for summary judgment and ruling that the
Declaration requires the owner of the Lakes Golf Course to affirmatively
operate a golf course on the property. We review de novo a trial court's
grant of summary judgment, viewing the facts in the light most favorable
to the party against which summary judgment was entered. Unifed
Dairymen of Ariz. v. Schugg, 212 Ariz. 133, 140 ¶ 26 (App. 2006). We also
review the interpretation of restrictive covenants and other contracts de
novo. Coll. Book Ctrs., Inc. v. Carefree Foothills Homeowners' Assn, 225 Ariz.
533,537 ¶ 11 (App.2010).
¶20
The covenant in Paragraph 2 of the Declaration provides in
pertinent part that
[t]he Property shall be used for no purposes other than
golf courses and such improvements and facilities (including
without limitation, clubhouses, restaurants, pro shops,
overnight lodging facilities, resort and connected recreational
facilities, bars, parking areas and golf cart trails) and uses as
are reasonably related to, convenient for or in furtherance of
golf course use or the accommodation of golf course patrons
and guests[.]
TTLC contends that this is a "restrictive covenant" that restricts activity
rather than an "affirmative covenant" that imposes an affirmative duty on
the owner to actively operate a golf course on the property. According to
TTLC,the covenant's terms allow it to choose to maintain a golf course or
to let the property remain "idle." Practically speaking,this would mean that
the property may be left barren and overgrown with weeds,emitting what
Swain end Breslin characterize as an "overwhelming stench;' yet comply
with the covenant.
¶21
TTLC's argument, however, runs counter to the principles
governing the interpretation of restrictive covenants in Arizona. Although
earlier Arizona decisions stated that restrictive covenants must be strictly
construed in favor of free use of the land and against any restriction, the
Arizona Supreme Court held in Powell that restrictive covenants should be

7

SWAIN,et al. v. BIXBY VILLAGE,et al.
Opinion of the Court
construed "to give effect to the intentions of the parties ascertained from
the language used in the instrument, or the circumstances surrounding
creation of the servitude, and to carry out the purpose for which it was
created." 211 Ariz. at 556-57 ¶¶ 12-13 (quoting Restatement (Third) of
Property: Servitudes § 4.1(1)). This rule is consistent with "long-standing
Arizona case law holding that enforcing the parties' intent is the 'cardinal
principle' in interpreting restrictive covenants;' id. (quoting Arizona
Biltmore Estates Assn v. Tezak,177 Ariz. 447,449(1993)), and recognizes the
benefits of restrictive covenants,id. at 557 ¶ 16. Applying the Powell rule to
this case,the covenant must be interpreted to require the owner of the Lakes
Golf Course property—TTLC in this case—to maintain and operate a golf
course on the property.
¶22
The circumstances surrounding the coven<2nt's creation and
the covenant's language show that the covenant was intended to require
the continuous operation of a golf course on the property. The Lakes Golf
Course was a part of the original development of Ahwatulcee from the
1970s and was an important amenity for Ahwatukee homeowners. Its
importance was documented in 1986, when the Declarant created a
restriction on the property's deed limiting the use of the property to a golf
course for 10 years. The Declarant amended the restriction twice, first
adding one year to the restrictions time period and then adding five more
years to it. In 1992, the Declarant included the restriction as a term of the
CC&Rs of the property. These circumstances show the anginal owner
intended that a golf course should Ue maintained on the property.
¶23
The covenant's language confirms its twin purposes: first, to
maintain the property so that it qualifies for the tax benefits under A.R.S.
§§ 42-125.01 and 42-146, and second, to protect the Benefitted Persons'
interest in living next to, or having views of, a golf course. As for the tax
benefits, the 1986 document specifically created the deed restriction
"pursuant to A.R.S. § 42-125.01" and imposed the requirement that any
amendment to the restriction be made "subject to the provisions of A.R.S.
§ 42-125.01[.]" The Declaration further provides drat"the Declarant intends
to comply with the requirements and obtain the benefits of Arizona Revised
Statutes Section 42-146 regarding the valuation and taxation of golf
courses." This purpose can be achieved only if golf can be played or
practiced on the property. See Phxaz Ltd. P'ship v. Maricopcc Cty„ 192 Ariz.
490, 494 ¶¶ 20-22 (App. 1998) (finding that land is not a "golf course'
within the meaning of section 42-146 if golf cannot be practiced or played
on the property on the valuation date).

SWAIN,et al. v. BIXBY VILLAGE,et al.
Opinion of the Court
¶24
Asfor protecting the Benefitted Persons'interest in living next
to a golf course, the Declaration states that the CC&Rs were created in part
for the benefit of the Benefitted Persons and that those individuals could
affirmatively enforce the CC&Rs. The Benefitted Persons thus have the
right to ensure that they have a golf course next to, or within view of, their
homes. Interpreting the covenasit to allow the current owner to leave the
property "idle' completely frustrates this purpose. TTLC presents the
options neutrally, as between a golf course or no golf course. But the option
of no golf course does not leave the property merely without a golf course,
but—as Swain and Breslin testified—a dead, desolate "wasteland" with
overgrown weeds, ringed by a chain-link fence. The choice of such an
alternative destroys the covenant's purpose and could not be within the
original owner's intention in creating the covenant.z
¶25
TTLC argues, however, that certain language in Paragraph 2
specifically grants it the right to cease operating a golf course. One clause
of Paragraph 2 states that the Declarant reserves the right to redesign or
reconfigure the golf course or "remove, modify, alter, relocate, replace,
expand, abandon, demolish, cease the use of or rebuild any of the
improvements or facilities related to the use of the [p]roperty for golf
courses[.]" But this clause does not support TTLC's argument. The first part
gives TTLC the right to abandon, demolish or cease to use any of the
improvements or facilities related to the use of the property as a golf course,
not the course itself. The second part then confirms the point, giving TTLC
the right only to "redesign or reconfigure' the golf course, not to remove it.
Accordingly, in context of that language, the authority to cease use of
irnprovements or facilities on the property does not empower TTLC to
completely cease using the entire property as a golf course.
¶26
TTLC next argues that Paragraph 2 also expressly provides
for an "exception' to the restriction, granting it the right to leave the
property "essentially undeveloped property." The phrase on which TTLC
focuses provides that the property may be used for "easements[,] .. .
pedestrian trails and walks, cables, utilities, drainage and other similar
easements and rights of way[.]" Nothing in this language, however,

2
TTLC also argues that, Uecause the Benefitted Persons do not have
the right to use the property for golf,"it only makes sense'that they cannot
compel the owner to provide a golf course. This argument fails because the
issue is not whether the homeowners play golf on the golf course, but
whether they have the right to have a golf course next to or within view of
their homes.
9

SWAIN,et al. v. BIXBY VILLAGE,et al.
Opinion of the Court
suggests that the property may remain "essentially undeveloped
property."
¶27
Under the Powell rule, the circumstances surrounding the
creation of the covenant and the covenants language itself demonstrate
that covenant must be interpreted to require the owner of the Lal<es Golf
Course property to operate a golf course on the property. The trial court
thus correctly granted Swain and Breslin's cross-motion for partial
summary judgment and denied TTLC's motion for summary judgment.
2. Modification of the Declaration
¶28
TTLC argues that the trial court erred in finding that TTLC's
determination that a "material change' existed was neither binding nor
entitled deference. TTLC asserts that, as a successor to the Declarant,
Paragraph 6 to the Declaration gives it unfettered discretion to determine
whether a "material change in conditions or circumstances" has occurred
and that the court must defer to its determination and then evaluate its
proposed modification under a reasonableness standard. Paragraph 6
provides in pertinent part that
if Declarant or Developer (including their successors or
assigns) determines that there has been a material change in
conditions or circumstances affecting the Property or the
[CC&Rs]
Declarant ar Developer may petition the
Maricopa County Superior Court or any other court or
adjudicative body of competent jurisdiction for modification
of this Declaration.
¶29
TTLC's interpretation of the provision is incorrect because it
would make the court's role in the modification process superfluous. Had
the drafters of the provision intended for the property owners' discretion
to be absolute, they would not have required that the party seeking
modification petition the court to request approval of what it determined
to be a "material change' in conditions or circumstances. Moreover, the
provisions language unplies that the original drafters intended that the
established common law rules for modifying a restrictive covenant apply.
Had the drafters intended that the court apply a different standard of
review, they would have said so or otherwise explicitly provided
unfettered discretion to the property owner or a definition for "material
change." TTLC's determination about whether a "material change' existed
is therefore not entitled deference.

10

SWAIN,et al. v. BIXBY VILLAGE,et al.
Opinion of the Court
¶30
TTLC argues that if this Court holds that it is not entitled to
absolute deference in its determination of a "material change' of
circumstances, this Court should adopt the deferential standard of review
articulated in Tierra Ranchos Homeoumers Assn v. Kitchukov, 216 Ariz. 195
(App. 2007). That decision adopted the rule from the Restatement (Third)
of Property: Servitudes § 6.13 that requires ch111engers to a proposed action
establish that the action is unreasonable. Id. at 201 ¶¶ 26-27. But Tierra
Ranchos is inapposite because it involved a CC&R that explicitly provided
a community association "sole and absolute discretion[]" to determine
whether a proposed modification to property "violates any provision of
[the] Declaration [] Guidelines' or "is unsatisfactory or aesthetically
unacceptable." See id. at 197 ¶ 5. The provision here, however, does not
grant the declarant, developer, or successor absolute discretion to
determine whether a "material change' exists or to modify the Declaration.
Moreover, Tierra Ranchos involved the discretionary decisions of
community associations concerning modifications to property, while the
issue here involves a successor's decision regarding modification to a
covenant. See id. at 201 ¶ 23(noting that the issue before the court was"what
deference, if any, should be given to a community associations
discretionary decisions concerning modifications or improvements to
property.").
¶31
To obtain relief from the covenant, then, TTLC needed to
prove that changes occurred that were "so fundamental or radical" that
they "defeat[ed] or frustrate[d]" the covenant's purposes. Decker v.
Hendricks,97 Ariz. 36,41 (1964). The trial court correctly found that no such
changes had occurred. TTLC argued that economic conditions made
operating astand-alone golf coarse unprofitable. Even if that were true,
TTLC could not rely on that fact because the alleged unprofitability was a
fact lrnown when TTLC bought the property. TTLC cannot buy a business
already failing because of economic conditions and then claim that its
unprofitability is a "material change" in circumstances justifying the
vitiation of a covenant on the property.
¶32
Even if TTLC could be allowed to so claim, however, the
evidence does not support that a material change had occurred. TTLC did
present expert testimony that operating astand-alone golf course would be
unprofitable. But Swain Ind Breslin presented their own expert who
testified that a golf course would be profitable. The trial court weighed the
conflicting evidence and found that Swain and Breslins evidence was more
credible, and we defer to the trial courts £actual findings, see FL Receivables
Trust 2002-A v. Ariz. Mills, L.L.C., 230 Ariz. 160, 166 ¶ 24(App. 2012), and
will not "reweigh the credibility of expert testirnony on appeal," A
11

SWAIN,et al. v. BIXBY VILLAGE,et al.
Opinion of the Court
Tumbling-T Ranches v. Flood Control Dist. ofMaricopa Chj., 222 Ariz. 515,535
¶ 59 (App. 2009). The trial court did not err in declining to modify the
covenant.
3. Grant of Permanent Injunction
¶33
TTLC argues that the trial court erred in granting Swain and
Breslin a permanent injunction because restoring the golf course is
economically unfeasible. We review the trial court's grant of an injunction
for an abuse of discretion. Cheatham v. DiCiccio,240 Ariz.314,317 ¶ 8(2016).
If substantial evidence supports an injunction, we will not substitute our
judgment for the trial court's. Wood v. Abril, 244 Ariz. 436, 438 ¶ 6(App.
2018). YVhether a covenant should be enforced depends on equitable
considerations, such as the parties' relative hardships, the parties'
misconduct, public interest, and adequacy of other remedies. Fling
Diamond Airpark, LLC v. Meienberg, 215 Ariz. 44,47 ¶ 10(App. 200'x.
¶34
The trial court did not abuse its discretion in enfarcing the
covenant. The evidence showed that Swain and Breslin would continue to
suffer considerable hardship if the injunction were denied. Swain and
Breslin had purchased their homes relying on the fact that the owner of the
Lakes Golf Course property world maintain and operate it as a golf course.
By affirmatively destroying the golf course and refusing to rebuild it, Bixby
and its successor,TTLC,have replaced Swain's and Breslin's views of grass
and lakes with a barren stench-filled "wasteland" of overgrown weeds
ringed by a chain-link fence. And no remedy but an injunction will protect
Swain and Breslin from the continuation of this harm.
¶35
The hardship TTLC suffers from the covenant's enforcement,
in contrast, does not compare. TTLC argues that forcing it to rebuild and
maintain a golf course is inequitable because a golf course is not
economically viable. Mere economic struggles, however, cannot serve as a
basis for abrogating a restrictive covenant and rendering its enforcement
inequitable. See Shalimar Assn v. D.O,C. Enters., Ltd.,142 Ariz. 36,45(App.
1984). And in any event, TTLC did not establish that a golf course on the
property would be economically unviable. See supra at ¶ 32.
¶36
Moreover, whatever hardship will come from requiring the
rebuilding of the golf course TTLC brought upon itself. As the trial court
found, TTLC Irnowingly violated the covenant. TTLC purchased the
property with the sole intent to redevelop it into a lucrative residential
development and allowed the property to further deteriorate while
pursuing that goal. TTLC knew before it purchased the property that

12

SWAIN,et al. v. BIXBY VILLAGE,et al.
Opinion of the Court
several homeowners opposed any changes to the restriction. In fact, it was
entirely aware of a pending lawsuit to enforce the deed restriction.
Nevertheless, TTLC took a calculated risk when it decided to buy the
property and wage a costly and aggressive campaign to modify the
Declaration. Permitting TTLC to now claim that an enforcement of the
restriction works a hardship on it would indeed be inequitaUle:"[N]o court
will allow the perpetrator of a wrong to rely upon the contention of relative
hardship." Decker,97 Ariz. at 41. TTLC acted at its peril, and its inequitable
conduct in the face of opposition supports the granting of the injunction.
¶37
Enforcing the deed restriction through a permanent
injunction also preserves public policy and is in the public interest. The
ABM community has about 5,200 homes, and many of those homeowners
relied on the continued enforcement of the covenants and restrictions.
Moreover, Arizonas public policy is to protect those who have purchased
property relying on restrictions from the invasion of those who attempt to
break down the guaranties of home enjoyment under the guise of business
necessities. Cont'l Oil Co. v. Fennemore, 38 Ariz. 277, 286 (1931). The trial
court therefore did not abuse its discretion in requiring that TTLC restore
and operate a golf course on the property.
¶38
In a related argument,TTLC asserts that an injunction would
violate the Thirteenth Amendment to the United States Constitution. The
Thirteenth Amendment declares that neither slavery nor involuntary
servitude shall exist, and the term "involuntary servitude' was intended to
cover those forms of compulsory labar akin to "African slavery[.]" Butler v.
Perry, 240 U.S. 328,332(1916).
¶39
We reject TTLC's Thirteenth Amendment argument. TTLC
voluntarily entered a contract to purchase the Lakes Golf Course property,
with full knowledge of the risks involved in the transaction. Moreover,
despite its voluntary choice to purchase the encumbered property, its
argument fails because acovenant—whether affirmative or negative—is
enforceable against subsequent purchasers who tale their ownership with
notice of the restriction. See Shnlimar, 142 Ariz, at 43-44 (enforcing by
mandatory injunction an implied covenant to maintain property as a golf
course, despite its purported unprofitability). The trial court's ordering an
injunction therefore did not violate the Thirteenth Amendment.
4. Attorneys' Fees
¶40
Because we do not reverse the trial court, we need not vacate
its award of attorneys' fees. Both parties, however, request an award of

13

SWAIN,et al. v. BIXBY VILLAGE,et al.
Opinion of the Court
attorneys' fees and costs incurred on appeal. Generally, we enforce a
contractual attorneys' fees and costs provision according to its terms. Berry
v. 352 E. Virginia, L.L.C., 228 Ariz. 9, 13 ¶ 17(App. 2011). The Declaration
provides,in relevant part:
In the event of any violation or breach of, or default under,
the provisions of this Declaration,...any Benefitted Person
entitled to enforce this Declaration may ...seek injunctive
relief against the then owners, occupants or users of the
[p]roperty causing the breach, default or violation ...and[] if
... such Benefitted Person enforcing this Declaration prevails,
...such Benefitted Person shall be entitled to reimbursement
of all court costs and reasonable attorneys' fees from said
defaulting owner, occupants or users.
Because the Benefitted Persons have prevailed in this appeal, Swain end
Breslin may recover reasonable attorneys' fees and taxable costs upon
compliance with Arizona Rule of Civil Appellate Procedure 21.
CONCLUSION
¶41

For the foregoing reasons, we affirm.

AMY M. WOOD •Clerk of the Court
FILED: pjl

14

~-

.~

S3~ ~
z

$y

3

°Frtas~y3 •~.
°e'er,

4
5

e

SUPERIOR COURT OF MARICOPA COUNTY,ARIZONA

s

LINDA W. SWAIN, an individual; and EILEEN Case No. CV2014-051035
T. BRESLIN, an individual,

9

Plaintiffs

io

vs.

n

TTLC AHWATUKEE LAKES INVESTORS,
LLC,an Arizona limited liability company,

iz

Defendant.

FINAL Jl7DGMENT AND
ORDER FOR PERMANENT
INJUNCTYON
(Assigned to Hon. John R. Hannah, Jr.)

13
14

is

JUDG1YIElVT AGAINST TTLC AgIWATUKEE LAKES INVESTORS,LLC

Ib

Partial summary judgment was entered in this matter, in favor of plaintiffs Linda

i7

W. Swain and Eileen T. Breslin ("Plaintiffs") and against defendant TTLC Ahwatukee

is

Lakes Investors, LLC ("Defendant"), in a formal order issued on July 11, 2016. The

re

matter then came on for a bench trial on the remaining issues in the First Amended

zo

Complaint and the issues in Defendant's Counterclaim filed against Plaintiffs.

21
zz
23

,4
2s
zv
z~
zs

Based on the evidence presented at trial and the Court's Findings of Fact and
Conclusions of Law, the Court finds in favor of Plaintiffs and against Defendant on
Plaintiffs' First Claim for Relief that Defendant breached the terms of the Declaration
Covenants, Conditions, Restrictions and Easements recorded November 11, 1992 by
Maricopa County Recorder as Instrument No. 92-646838) (the "1992 Covenants,
Conditions and Restrictions"), on Plaintiffs' Second Glaim for Relief that Defendant
breached the covenant of good faith and fair dealing implied in the 1992 Covenants,
Conditions and Restrictions, and on Plaintiffs' Third Claim for Relief that Plaintiffs are

entitled to injunctive relief. The Court further finds in favor of Plaintiffs (Counterz defendants) and against Defendant (Counterclaimant) on Defendant's
Counterclaim
3

seeking declaratory relief requesting a modification of the 1992 Covenants, Conditions

4

and Restrictions. The Court further finds Plaintiffs are eligible for an award of

s

attorneys' fees and court costs. Accordingly,

e

IT IS HEREBY ORDERED that the owners of the Ahwatukee Lakes Golf Course
(legally described on Exhibit A (pages 11-17) to the 1992 Covenants, Conditions and

x

(

Restrictions) are permanently enjoined to and shall operate a golf course on the subject
property, for the benefit of those described in the 1992 Covenants, Conditions and

io Restrictions as Benefitted Persons, in conformity with the "Declaration of Use
ii Restriction" set forth in paragraph 2 of the 1992 Covenants, Conditions and Restrictions.
iz

IT IS FURTHER ORDERED that the owners of the Ahwatukee Lakes Golf

13

Course shall provide information concerning the restoration of the golf course to the

to

plaintiffs, their attorneys and representatives and to any other Benefitted Persons, upon

is reasonable request, sufftcient to allow the plaintiffs and Benefitted Persons to determine
16

whether the property owners are complying with the permanent injunction.

i~

IT IS FURTHER ORDERED that TTLC Ahwatukee Lakes Investors, LLC shall

IR

take nothing on their claim for modification of the 1992 Covenants, Conditions and

19

Restrictions, and the request for modification is denied.

zo

IT IS FURTHER ORDERED awarding judgment in favor of Linda W. Swain and

zi

Eileen T. Breslin and against TTLC Ahwatukee Lakes Investors, LLC for Plaintiffs'

z~

reasonable attorneys' fees in the amount of$128,819.50, with interest at the legal rate of

23

5.75% per annum from the date this Judgment is entered until paid in full.

24

IT IS FURTHER ORDERED awarding judgment in favor of Linda W. Swain and

25

'Eileen T. Breslin and against TTLC Ahwatukee Lakes Investors, LLC for Plaintiffs'

2G

taxable costs in the amount of $2,798.62, with interest at the legal rate of 5.75% per

27

annum from the date this Judgment is entered until paid in full.

26

/~~~~

2

~~

.~

JUDGMENT AGAINST FORMER DEFENDANTS
2

Pursuant to the Stipulation between Plaintiffs and Bixby Village Golf Course,

3

Inc., Hiro Investment, LLC, Nectar Investment, LLC, Kwang Co., LLC and Ahwatukee

4

Golf Properties, LLC (collectively, "Former Defendants") entered herein on January 5,

s 20]6, and the Order approving the Stipulation entered herein on January 12, 2016, and
c for the reasons in the Findings of Fact and Conclusions of Law entered herein on
January 2, 2018, the Court finds Plaintiffs is entitled to recover their attorneys' fees and
s taxable court costs against the Former Defendants. Therefore,
9

IT IS ORDERED awarding judgment in favor of Linda W. Swain and Eileen T.

io

Breslin and against Bixby Village Golf Course, Inc., Hiro Investment, LLC, Nectar

ii

Investment, LLC, Kwang Co., LLC and Ahwatukee Golf Properties, LLC,jointly and

iz severally, for reasonable attorneys' fees in the amount of $42,000.00 with interest at the
13

legal rate of 5.75% per annum from the date this Judgment is entered until paid in full.

to

IT IS FURTHER ORDERED awardingjudgment in favor of Linda W,Swain and

is

Eileen T. Breslin and against Bixby Village Golf Course, Inc., Hiro Investment, LLC,

16

Nectar Investment, LLC, Kwang Co., LLC and Ahwatukee Golf Properties, LLC,jointly

i~

and severally, for taxable costs in the amount of$ 824.03 with interest at the legal rate of

is 5.75% per annum from the date this Judgment is entered until paid in full.
19

zo
zi
zz

RULE 54(C)
No further matters remain pending in this case. This Judgment is entered
pursuant to Rule 54(c) of the Arizona Rules of Civil Procedure.
Dated

~✓ ~ 3~ ~ /~

~—`'

23
24

~~
Hannah, 7r., Judge
~a County Superior Court

~~
25
2G
?7
28

3

1

1

~

I

~~~►
IC, d~ANES,Clerk
Hartley,
-

IN THE SUPERIOR COURT OF THE STATE OF ARIZONA

z

IN AND FOR THE COUNTY OF MARICOPA

a
4
s

LINpA W.SWAIN,an individual; and EILEEN
T. BRESLIN,an individual,
Case No. CV2014-051035

6
Plaintiffs,
a
9
io

FINDINGS OF FACT AND
CONCLi7SIONS OF LAW

vs.
TTLC AHWATITKEE LAKES INVESTORS,
LLC,an Arizona limited liability company,
Defendant.

ii
iz
13

(The Han, John R. Hannah, Jr.)

Findines ofFact
1.

On October 16, 1986, Chicago Title Agency of Arizona, Inc. (the

14 "Declarant"), as the sole owner in trust for the benefit of The
Presley Companies
IS ("Developer") of the 18 hole executive golf course known as Ahwatukee
Lakes Golf
16 Course (the "Ahwatukee Lakes Golf Course" or the "Property"), caused to
be recorded
t7 as Instrument No. 86-568479 in the records of Maricopa County, Arizona,
that certain
is deed restriction (the "Lakes Deed Restriction") covering the Ahwatukee
Lakes Golf
19 Course,the legal description of which was attached to the Deed Restriction.
zo
zi
zz
23
za
zs
26
z~
za

2.

The substance ofthe Lakes Deed Restriction stated as follows:

Chicago Title Agency of Arizona, Tnc., an Arizona corporation, as owner in
trust of the real property situated in the County of Maricopa, State of
Arizona, described in Exhibit A attached hereto and incorporated herein by
reference, hereby makes this deed restriction pursuant to A.R.S. § 42125.01, restricting the use of said property to use as a golf course, facilities
and improvements related thereto, for ten (10) years. This restriction
constitutes a covenant between the county assessor and the owner of
subject real property and is not for the benefit of the surrounding properties
or any third party. This restriction may be amended, revoked or extended
for any time at the discretion of the then owner of the property, subject to
the provisions of A.R.S, § 42-125.01.

i

3.

On September 11, 1987,the Declarant caused to be recorded as Instrument

z

No. 87-570515 an amendment to the Lakes Deed Restriction extending the term of the

3

deed restriction for one(1)additional year.

4

4.

On December 27, 1988, the Declarant caused to be recorded as Instrument

5

No. 88-624742 an amendment to the Lakes Deed Restriction extending the term of the

fi

deed restriction for five(5)additional years.

z

5.

On November 13, 1992, the Declarant caused to be recorded as Instrument

8

No. 92-646838 a Declaration of Covenants, Conditions, Restrictions and Easements (the

9

"1992 Covenants, Conditions and Restrictions") (Exhibit 4) regarding, in addition to

io
ii

other real property, the Ahwatukee Lakes Golf Course.
6.

Recital D of the 1992 Covenants, Conditions and Restrictions states as

iz follows:
13
14

~s
16

Declarant desires to establish certain covenants, conditions, restrictions and
easements with respect to the Property for the mutual benefit of (i)
Declarant and all present and future owners or users of such portions of the
Property as remain subject to this Declaration; and (ii) any other owner of
property located within the Ahwatukee master planned community as
defined on Exhibit B attached hereto.

i~
18
19

20

7.

Recital E of the 1992 Covenants, Conditions and Restrictions states, in

pertinent part, as follows:
By this Declaration, Declarant desires to amend and restate the Lakes Deed
Restriction ...

2i
zz
23

za
zs

8.

follows:
By recording this Declaration, the Declarant intends to comply with the
requirements and obtain the benefits of Arizona Revised Statutes Section
42-146 regarding the valuation and taxation of golf courses.

26

9.

27

POIIOWS:

28

Rec9tal F of the 1992 Covenants, Conditions and Restrictions states as

Paragraph 2 of the 1992 Covenants, Conditions and Restrictions states as

z
3

a
s
6

s
9

io

~~
l3

is
IS
l6

t~
is
19

Declaration of Use Restriction. Declarant, for the benefit ofthose persons
or classes of persons described in Recital D above (hereafter, `Benefitted
Persons'), hereby declares as follows:
The Property shall be used for no purposes other than golf courses and
such improvements and facilities (including without limitation,
clubhouses, restaurants, pro shops, overnight lodging facilities, resort and
connected recreational facilities, bars, parking areas and golf cart trails)
and uses as are reasonably related to, convenient for or in furtherance of
golf course use or the accommodation of golf course patrons and guests;
except that the Property may be further used for easements for ingress and
egress (vehicular and otherwise), pedestrian trails and walks, cables,
utilities, drainage and other similar easements and rights of way, and for
the construction and maintenance of walls, fences and other boundary
type protection, in each case reasonably related to the development and
use of the Ahwatukee project, together with improvements reasonably
related to said easements, uses and related services. No improvement
shall be made, constructed, installed or located on the Property that is not
reasonably related to, convenient for, or in furtherance of, the
aforementioned purposes. Declarant on its behalf and on behalf of its
successors and assigns, reserves the right to redesign or reconfigure the
golf courses at the Property or remove, modify, alter, relocate, replace,
expand, abandon, demolish, cease the use of or rebuild any of the
improvements or facilities related to the use of the Property for golf
courses, all at the discretion of the then-owner ofthe Property.
Neither Declarant nor its successors or assigns shall use the Properly for
any purpose other than as stated above. Declarant, on behalf of itself and
its successors and assigns, agrees that the covenants and restrictions fierein
may be enforced by Declarant or any Benefitted Person.

zo
10.

Pursuant to paragraph 6 of the 1992 Covenants, Conditions and

zi
Restrictions, the term of the covenants, conditions and restrictions therein "shall be
zz
appurtenant to and run with the land and shall be binding upon all present and future
23

owners, occupants and users of the Property or any portion thereof and all persons
24

claiming an interest in and to the Property in perpetuity".
25

11.

Paragraph 6 of the 1992 Covenants, Conditions and Restrictions also

26

states, in part, as follows:
z~
is

[I]f Declarant or Developer (including their successors or assigns)
determines that there has been a material change in conditions or

3

z
3

circumstances affecting the Property or the covenants, conditions,
restrictions and easements set forth herein, Declarant or Developer may
petition the Maricopa County Superior Court or any other court or
adjudicative body of competent jurisdiction for modification of this
Declaration,

a
s
6

z
s
9

to
ii
iz
13

is
is
16

12.

Paragraph 4 of the 1992 Covenants, Conditions and Restrictions states as

follows:
Enforcement. In the event of any violation or breach of, or default under,
the provisions of this Declaration, Declarant, Developer or any Benefitted
Person entitled to enforce this Declaration may, in addition to any other
available remedies, seek injunctive relief against the then owners,
occupants or users of the Property causing the breach, default or violation
for the discontinuation of such breach, default or violation, and, if
Declarant, Developer or such Benefitted Person enforcing this Declaration
prevails, Declarant, Developer or such Benefitted Person shall be entitled to
reimbursement of all court costs and reasonable attorneys' fees from said
defaulting owner, occupants or users.
13.

From approximately 1986 through May of 2013, different owners of the

property operated the Ahwatukee Lakes Golf Course on the Property.
14.

In June 2006, Bixby Village Golf Course, Inc., Hiro Investment, LLC,

i~

Nectar Investment, LLC and Kwang Co., LLC (collectively, "Bixby") purchased the

18

Ahwatukee Lakes Golf Course and the Ahwatukee Country Club for $5.6 million.

19

15.

Wi(son Gee testified the ownership percentages of Bixby were: Nectar

zo

Investment, LLC owned 31.66%, Hiro Investment, LLC owned 26.67%, Kwang Co.,

zt

LLC owned 26.67% and Bixby Village Golf Course, Inc. owned 15°/a,

zz

16.

When Bixby purchased the Ahwatukee Lakes Golf Course and the

23

Ahwatukee Country Club, Hiro Investment, LLC, Nectar Investment, LLC and Kwang

24

Co., LLC (collectively, "Hiro, Nectar and Kwang") provided Bixby $400,000.00 to

zs

make improvements to golf courses

26

improve the Ahwatukee Country Club.

z~
26

17.

The majority of the $400,000.00 was spent to

Mr. Gee testified that Bixby intended, at the time of purchase, to operate

the Ahwatukee Lakes Golf Course as a golf course. He denied that Bixby purchased the

a

i

property with the intent to develop it. This testimony was not entirely credible for a
z number ofreasons, some of which have to do with the structure of the transaction itself.
3

• Bixby structured the transaction as a section 1031 tax-free swap, suggesting that

4

the price Bixby was willing to pay depended at least in part on the amount of
money the company had to invest.

s
6

• Bixby allocated the lion's share of the purchase price (~4 rr►illion of the $5.6
million total) to the Ahwatukee Lakes Golf Course, but Mr. Gee never articulated

s

a good reason for that. I-Ie simply attributed the decision to his "comfort level."

9

No evidence was presented to indicate that the Property was worth $4 million as a
golf course in 2006,
• As noted below, the "rent" paid by Mr. Gee's operating company, Ahwatukee

iz

Golf Properties, LLC, was intended to provide a fixed return on investment to

l3

Bixby's owners. It bore no apparent relationship to the market rental value of the

14

property.

~s

• As noted below, Mr. Gee stood to receive a 30 percent bonus share of the net

16

proceeds if the property was sold at a profit.

i~

18.

In June 2006, Bixby and Ahwatukee Golf Properties, LLC ("AGP")

is entered into a Lease Agreement("AGP Lease")(Ea~hibit 5) under which AGP leased the
19

Ahwatukee Lakes Golf Course and the Ahwatukee Counhy Club from Bixby.

zo

19.

ACrP is wholly owned by Wilson Gee and his wife.

z~

20.

The AGP Lease required AGP to pay Bixby annual rent of $420,000.00.

zz Of that annual rent amount, $280,000.00 was allocated as annual rent for the Ahwatukee
23

2a

Lakes Golf Course,
21.

Wilson Gee testified the $280,000.00 was not a negotiated fair market

zs rental amount, but represented a seven percent(7%) return on the investment (based on
26

the income from the Ahwatukee Lakes Golf Course) to the four Bixby owners in

z~ Bixby's purchase ofthe Ahwatukee Lakes Golf Course.
is

s

i

22.

Paragraph 5 of the AGP Lease required AGP to maintain the Ahwatukee

s

Lakes Golf Course "in accordance with the standards of ahigh-quality privately-owned

s

public and semi-private golf course"; and paragraph 7 required AGP,at its own expense,

a

to provide all maintenance and repair work necessary or appropriate to maintain the
property and golf course "in the condition expected of ahigh-quality privately-owned

s

s public and semi-private golf course at all times during the Term" ofthe AGP ~,eas~.
~
s

23.

Paragraph 14 of the AGP Lease provides that in the event of a sale of the

Ahwatukee Lakes Golf Course, AGP is entitled to be paid up to 30% of net sale price of

9 the property sold that exceeds $4.2 million.
~0

24.

Wilson Gee testified that through 2006 (and the purchase of the

ii

Ahwatukee Lakes Golf Course and the Ahwatukee Country Club), his investors had

iz

invested the principal amount of $1,65 million in different golf courses that Bixby

i3

purchased,

is

25.

is

Another reason to doubt Mr. Gee's testimony about Bixby's plans for the

property is that, not later than 2008, Mr. Gee in fact began making efforts to redevelop

~6 the Ahwatukee Lakes Golf Course. In the fall of 2008, Mr, Gee met with the
i~ Ahwatukee Board of Management("ABM")Z about redeveloping the Ahwatukee Lakes
is

Golf Course; and in 2009, Mr. Gee met with Phoenix City Councilman Sal DiCiccio

~~

about redeveloping the Ahwatukee Lakes Golf Course. There was no evidence that the

zo

golf course could not have been operated profitably in 2008.

zi

26.

The condition of the Ahwatukee Lakes Golf Course progressively

zz

deteriorated between 2005 (one year before Bixby purchased the property) and 2017.

z3

The photographs of the Ahwatukee Lakes Golf Course taken in 2005, 2013, 2014, 2015

za

and 2017 (Exhibits 17 — 22) show the deterioration. Mr. Gee denied that Bixby

zs
26

z~
ZS

~ Wilson Gee testified that his original investor was a gentleman from Japan; and when that
gentleman passed away, the man's three sons became the investors. Those three sons formed
Hiro, Nectar and Kwang.
2 The ABM is the homeowner association for the Ahwatukee master planned community.

6

t
z
3

intentionally failed to maintain the course, but the photographic evidence contradicted
his denial.
27.

Tn May 2013, Bixby closed the operation of the Ahwatukee Lakes Golf

a

Course and placed a barbed wire fence around the perimeter of the golf course. The

5

course was stripped of items that had value, such as sod and irrigation equipment. One
~ year later, Bixby removed the fence and drained the lakes.

6

28.

Bixby did not attempt to modify the 1992 Covenants, Conditions and

a

Restrictions at any time before or after Bixby closed the Ahwatukee Lakes Golf Course.

9

The evidence did not show that Bixby could not have operated the golf course

is

profitably, with adequate maintenance, at any point in time before Bixby closed the

ii

course and stripped it.

iz

29.

After Bixby closed the Ahwatukee Lakes Golf Course, the course could

13

not be used for golfing or golfing practice by Swain, Breslin, the Benefitted Persons or

is

by the public.

is

30.

In July 2013, Bixby entered into a Memorandum of Real Estate Purchase

16

and Sale Agreement (Exhibit 6) with Pulte Home Corporation, which intended to

~7

develop the Ahwatukee Lakes Golf Course into a residential community.

is

31,

After the Ahwatukee Lakes Golf Course was closed, The True Life

19

Companies, LLC, a Delaware limited liability company ("True Life Companies")

zo

became aware that Ahwatukee Lakes Galf Course was available for purchase.

zt

32.

True Life Companies is the parent company of multiple affiliated

zz

companies which are incorporated in each of the various states in which True Life

23

Companies operates.

24

33.

True Life Companies is a real estate investment and community

zs

development company that provides lots to home builders or is capable of developing

26

residential communities with its own residential construction division.

z~
zs

34.

True Life Companies was interested in purchasing the Ahwatukee Lakes

Golf Course for purposes ofredeveloping the land into a residential community.

35.
z
3
4
5
6

True Life Companies never intended to reconstruct the Ahwatukee Lakes

Golf Course or to operate it as a stand-alone golf course,
36.

In March of 2015, Bixby, AGP and True Life Companies entered into a

Real Estate Purchase and Sale Agreement(the "Purchase Agreement")(Exhibit 7).
37.

The Purchase Agreement acknowledged the existence of the Lakes Deed

Restriction in Recital D (defined therein to be the "Declaration").
38.

The Purchase Agreement provided for a feasibility contingency and study

a

period in paragraph 5. Paragraph 5(a) provided fora "Feasibility Period" that would

9

extend through May 8, 2015. That subparagraph stated, in part:

]0

n
~z
l3

~a
is
16

Seller hereby acknowledges that Buyer's determination of the feasibility for
the acquisition and development ofthe Property is a contingency to Buyer's
acquisition of the Property. Seller further acknowledges that Buyer may
invest substantial time, effort and resources in investigating the feasibility
and other matters including, without limitation, expenditure of funds on
engineering fees, architectural fees, soils analysis, environmental analysis,
research of relevant codes, ordinances, regulations and other issues during
its investigation ofthe Property.
39.

Paragraph 5(c) of the Purchase Agreement required Bixby to provide

"Property Information" including, among other Property Information, "Buyer's ability to
is 'secure the Entitlements (as defined in Para rg aph 37 below)". (Original emphasis).
19

zo
zi
22
23
24

zs
26

40, Paragraph 6(fl ofthe Purchase Agreement stated, in part:
At the Closing, AGP and the other parties constituting Seller shall cause the
AGP Lease to be terminated. In this regard, any and all service contracts,
equipment leases, and maintenance agreements relating to the operation or
running of the Golf Course (collectively, `Service Contracts') shall also be
terminated as of the Closing, and Buyer shall have no obligation as to any
such Service Contracts, nor will any such Service Contracts be assigned or
transferred to Buyer at such Closing. As to any such Service Contracts,
AGP covenants and agrees to legally terminate all Service Contracts as of
the Closing, and AGP shall indemnify, defend and hold Buyer harmless
from and against all costs, expenses and liabilities arising from or related to
any Service Contracts.

z~
za

41.

Paragraph 10(b)of the Purchase Agreement stated:

s

z
3
4

s
G

Seller and Buyer acknowledge and agree that regarding the potential
development of the Real Property for residential purposes, Seller has
discontinued the use ofthe Real Property as a golf course. Such action may
constitute a violation of the Golf Course Restriction and subject the Real
Property to a penalty under A.R.S. Section 42-13154 in an amount equal to
the difference between the total amount of property taxes that would have
been levied on the Real Property for the preceding ten (10) years or the
period of time the Real Property was valued under A.R,S. Section 4213154, whichever period is shorter, if the Real Property has not been valued
under A.R.S. Section 42-13154, and the property taxes that were actually
paid for the same period (the `Roll-Back Taxes'). (Original emphasis).

s
9

is
ii
iz
13

~a
is
re
t~
~s
19

za
zi
zz
23
24

~* * +~
If the Rolt-Back Taxes are not yet levied against the Real Property as ofthe
Closing Date, then the transactions contemplated by this Agreement shall
proceed, and in the event the Roll-Back Taxes are thereafter levied against
the Real Property after the Closing Date, then Buyer shall be fully
responsible for the full payment of all such Roll-Back Taxes, and Seller
shall have no obligation to pay all or any portion thereof.
42.

The Purchase Agreement also acknowledged the pendency ofthis action in

paragraph 14(e)3 and paragraph 15(g).
43.

Paragraph 37 ofthe Purchase Agreement defined "Entitlements" to include

the following:
(i)
Removal of the use restriction contained in Paragraph 2 of the
Declaration, which limits the use of the Real Property to golf course use
and ancillary improvements and facilities and for no other purpose, as more
particularly described therein (the `Use Restriction');
(ii) A minor General Plan Amendment permitting Buyer's proposed
development plan for the Real Property, in a form and substance, and
subject only to such conditions and stipulations, as are acceptable to Buyer
in Buyer's sole and absolute discretion (the `General Plan Amendment');
(iii) An application to rezone the Real Property in accordance with
Buyer's proposed development plans, subject only to such conditions and

25
26

z~
za

3 Among other information, pazagraph 14(e) describes this lawsuit as one "wherein Plaintiffs,
individual property owners, have alleged that Seller has breached certain restrictive covenants
and conditions because of Seller's discontinuance of the operation of the golf course. Buyer
acknowledges that a full and complete copy of such complaint has been delivered to Buyer and
included in tha Property Information."

D

stipulations, as are acceptable to Buyer in Buyer's sole and absolute
discretion (the `Rezoning');
z
3

a
s
6

8
9

(iv) One or more preliminary maps of dedication and/or plats for the
Real Property and all required preliminary engineered improvement plans
applicable to the preliminary maps and plats, in a form and substance, and
subject only to such conditions and stipulations, as are acceptable to Buyer
in Buyer's sole and absolute discretion (the `Preliminary Plat'); and
(v) One or more final maps of dedication and/or Mats for the RPaI
Property and all required preliminary engineered improvement plans
applicable to the preliminary maps and plats, in a form and substance, and
subject only to such conditions and stipulations, as are acceptable to Buyer
in Buyer's sole and absolute discretion (the `Final Plat').

19

For purposes of this Agreement, the term `Final Approval' relating to the
Final Plat shall mean that the CiTy, the Maricopa County Flood Control
District, the ADWR and all other necessary governmental or quasi-governmenta] entities and all necessary utility providers, but specifically excluding
any homeowner's association or property owner's association (individually,
a `Governmental Authority' and collectively, the `Governmental
Authorities') have approved or issued, as applicable, in accordance with
their required procedures, all statutory and regulatory approvals and are
otherwise bound to provide the approvals, and that any reconsideration,
protest, appeal, referendum or litigation periods applicable to such
approvals have expired without any reconsideration, protest, appeal,
referendum or litigation having been filed. As prodtded in Section 3(b)(ii),
the outstanding principal balance then due and owing under the Note shall
all be due and payable ninety (90) days after Final Approval by the City of
the Final Plat has occurred.

20

44.

io
t~
~z
13

is
is
I6

t~
is

zt
zz
23
24

On May 8, 2015 Bixby and True Life Companies extended the Feasibility

Period from May 8, 2015 to June 8, 2015.
45.

On June 5, 2015 Bixby and True Life Companies extended the Feasibility

Period from June 8, 2015 to June 12, 2015.
46,

Defendant, on its own behalf or through a contract with a third party,

zs

invested time and effort before June 19, 2015 to determine the feasibility of the

26

acquisition and development of a residential community on the Ahwatukee Lakes Golf

z~

Course property.

28

10

47.
z
3i

a
s
6

Defendant did not undertake or contract for a study before June 19, 2015

I to determine the feasibility of a golf course being operated on the Property after June 19,
2015.
48.

Defendant, on its own behalf or through a contract with a third party,

undertook an economic analysis ofthe Property before June 19, 2015.
49.

Defendant, on its own behalf or through a contract with a third party,

z

inspected the Ahwatukee Lakes Golf Course before purchasing the Ahwatukee Lakes

s

Golf Course.

9

36.

Prior to purchasing the Ahwatukee Lakes Golf Course, Defendant was

io

aware of the content of paragraph 2 of the 1992 Covenants, Conditions and Restrictions

r~

related to, the Property, and specifically that paragraph 2 states in part that "[t]he

iz

Property shall he used far no purposes other than golf courses and such improvements

13

and facilities ...and uses are reasonably related to, convenient for or in furtherance of

l4

is

~ golf course use ..."
50.

Prior to purchasing the Ahwatukee Lakes Golf Course, Defendant was

I6

aware the Property would need to be re-constructed if it were ever to be used as a golf

tt

course after June 19, 2015.

16

51.

When it purchased the Ahwatukee Lakes Golf Course, Defendant had no

19

intention of reconstructing the Properly to put it back in the condition it was in as of

zo

May of 2013 when the Sellers closed the operation of the golf course on the Property.

zi

Defendant never intended, and does not now intend, to reconstruct the Ahwatukee Lakes

2z

Golf Course or to operate it as a stand-alone golfcourse

23
24

zs

52.

Defendant purchased the Ahwatukee Lakes Golf Course for $9 million

with the intention of developing the Property f'or residential or commercial use.
53.

On June 19, 2015, Defendant paid Bixby $750,000.00 as a down payment

26

and took fee title to the Ahwatukee Lakes Golf Course from Bixby; and Defendant

z~

executed and delivered to Bixby a Deed of Trust and Assignment of Rents on the

zs

Property.

ii

z

54.

True Life Companies, LLC is the sole member of Defendant.4

55.

The $750,000.00 down payment was paid by funds deposited directly into

3

escrow by True Life Companies on Defendants behalf. Because Defendant did not yet

a
s

have a revenue generating business, all of the post-purchase funds necessary for
Defendant to carry out its plan to modify the 1992 Covenants, Conditions and

6

Restrictions were provided to Defendant directly by True Life Companies.5
56.

The Deed of Trust and Assignment of Rents secured Defendants

s

obligation to Bixby under the June 19, 2015, Non-Recourse Promissory Note Secured by

9

Deed of Trust (the "Promissory Note")(Exhibit 10) in the principal amount of $8.25

io
ii

million.
57.

Asa "non-recourse" instrument, the Promissory Note expressly provided

12

that in the event of Defendants default under the terms of the Promissory Note, "the

l3

Holder of this Note agrees that in any action or proceeding brought on this Note or on

~a

the Deed of Trust or on any other instrument now or hereafter securing the indebtedness

is secured hereby, the Holder will look solely to the property secured by the Deed of Trust
16

(the "Trust Property") and the Trust Property income, and, except in the case of fraud or
intentional misrepresentation, neither Maker nor any principal, officer, member or

IS

manager of Maker, nor any successor or assign of Maker or pripcipal, officer, member

19

or manager of Maker, shall have any personal liability for the indebtedness evidenced by

zo

this Note or by reason of any obligations, covenants or agreements contained in the

21

Deed of Trust."

zz
23

58.

The Promissory Note expressly provided "no interest" was due on the

outstanding principal balance. The Promissory Note did provide for default interest of

24
25
26

4 Defendant is asingle-purpose and single-asset entity.
z~ 5 The funds which Defendant projected would be necessazy to carry out its redevelopment plan
are fisted in the "Ahwatukee Lakes-Business Plan"(Exhibit 32). From the "Deal Highlights —
28 TTLC Ahwatukee Lakes" portion of Exhibit 32, True Life Companies projected
many millions
of dollars in profits to its investor, itself and any home builder that purchased lots.

12%per annum in the event Defendant failed to timely pay any monies due under the
z terms ofthe Promissory Note.
3

59.

The Promissory Note obligated Defendant to make three (3) annual

4

payments:(i) $500,000.00 on June 19, 2016; (ii) $500,000.00 on June 19, 2017; and, on

5

the sooner of June 19, 2018 or 90 days after the "Final Approval by the City of Phoenix

6

ofthe Final Plat ofthe Real Property", whichever was sooner.b
60.

s
9

io
ti

Defendant took fee title to the Ahwatukee Lakes Golf Course by Special

Warranty Deed which expressly stated, in pertinent part, that Defendant took title
subject to, among other things, "all covenants, conditions, restrictions, reservations,
easements and declarations or other matters ofrecord ..."
61.

By accepting the Special Warranty Deed granting fee title to the

iz

Ahwatukee Lakes Golf Course, Defendant bound itself to comply with each of the

13

covenants, conditions and restrictions in the 1992 Covenants, Conditions and

to

Restrictions.

is

62.

The 1992 Covenants, Conditions and Restrictions constitutes a contract by

16

and between, among others, Defendant as the current owner of the Ahwatukea Lakes
Golf Course and, as express third-party beneftciaries, the Benefitted Persons as defined

~s

in the 1992 Covenants, Conditions and Restrictions.

19

63.

As the owner of the Ahwatukee Lakes Golf Course since June 19, 2015,

zo Defendant has been, and continues to be while Defendant remains owner, obligated to
zi

fully comply with each of the covenants, conditions and restrictions of the 1992

2z Covenants, Conditions and Restrictions.
23
24

64.

At the time Defendant took fee title to the Ahwatukee Lakes Golf Course,

Defendant was aware that the former golf course had been closed and neglected to the

25
26

~ In November 2015, Bixby and Defendant negotiated a modification to the loan documents
(Exhibit
38) by which the first two anniversary installments of $500,000.00 were waived and
z~
replaced by the payment of interest; and in June 2016, Bixby and Defendant negotiated another
28 modification to the loan documents (Exhibit 39} by which further terms of the loan
documents
were implemented.

13

point that the golf course would have to be completely reconstructed to put it back in the
z
3

a

condition it was in as of May of 2013 when Bixby closed the operation of the golf
i course.
65.

At the time Defendant took fee title to the Property, Defendant was aware

s

that Bixby had shut down the well that supplied water to the lakes, thus depleting the

6

water needed for irrigation. Bixby had previously removed all but obsolete irrigation
heads and shut off all power to the site including the clubhouse. The site, therefore, had

s
9

not had any water or electricity since May of2013.
66.

On June 19, 2015, Bixby and Defendant entered into a Well Sharing and

is

Easement Agreement (Exhibit 12) and a Lease of Type 2 Water Right in Phoenix AMA

ii

(Exhibit 13). Pursuant to those documents, Defendant acquired the right to annually use,

~z

at no cost, up S00 acre-feet of water to use on the Ahwatukee Lakes Golf Course.

13

68.

Water pumped to the Ahwatukee Lakes Golf Course from the well on the

14

Ahwatukee Country Club would not cost Defendant anything other than the necessary

is

electricity to pump the water from the well to its golf caurse.g

Ib

69.

Taber Anderson testified there was "no chance" Defendant would build a

~7

stand-alone golf course on that property because Defendant did not purchase the

is

Ahwatukee Lakes Golf Course to be a stand-alone golf course. Defendant might create a

19

par-three course on a portion of the land and pay for it with the proceeds of the housing

zo

development and assessments levied on the residential properties.

zi

70.

Aiden Barry testified Defendant went into the purchase of the Ahwatukee

zz

Lakes Golf Course "with eyes wide open" to the challenges it faced in its effort to obtain

23

the property so Defendant could redevelop the property for residential use,

24
25
26

2z
za

~ The well feeding the lakes on the Ahwatulcee Lakes Golf Course was located on the
Ahwatukee Country Club property. There was an irrigation and pumphouse system which
brought the water From the well to Ahwatukee Lakes Golf Course.
8 Defendant did not investigate what was necessary to turn on the electricity to the Ahwatukee
Lakes Golf Course.

to

71.

Aiden Barry testified the $9 million price Defendant agreed to pay for the

z, Ahwatukee Lakes Golf Course was not discounted in consideration of the risk of not
3

being able to successfully modify the 1992 Covenants, Conditions and Restrictions, but

4

was based on the value Defendant placed on the Property as a residential community site

s (as reflected in the "Deal Highlights — TTLC Ahwatukee Lakes"portion of Exhibit 32).
6

72.

Aiden Barry testified the non-recourse structure of the Promissory Note

was negotiated because of the risk of not being able to successfully modify the 1992
8
9

Covenants, Conditions and Restrictions and the costs incurred in the process,
73.

Because Defendant did not intend to reconstruct and operate astand-alone

io

golf course on the Ahwatukee Lakes Golf Course, the condition ofthe Ahwatixkee Lakes

ii

Golf Course when Defendant purchased the golf course was not a material consideration

iz

from Defendant's point of view.

]3

74.

At the time Defendant took fee title to the Ahwatukee Lakes Golf Course,

is

Plaintiffs had already initiated this lawsuit against Bixby alleging that Bixby was in

~s

violation of the 1992 Covenants, Conditions and Restrictions, which Plaintiffs asserted

16

required the owner of the Ahwatukee Lakes Golf Course to affirmatively operate a golf

i7

course on the Property.

l8

75.

After Defendant took fee title to the Ahwatulcee Lakes Golf Course from

19

Bixby, Plaintiffs amended their Complaint (the "Amended Complaint") to substitute

Za

Defendant as the Defendant in this lawsuit.

2~

76.

In response to the Amended Complaint, Defendant filed a Motion to

zz

Dismiss/Motion for Summary Judgment asserting the 1992 Covenants, Conditions and

23

Restrictions did not require the owner of the Property to affirmatively operate a golf

za

course on the Property, but instead could allow the Property to be unused.

25

77.

Plaintiffs filed across-Motion for Partial Summary Judgment on the issue

26

of whether the 1992 Covenants, Conditions and Restrictions affirmatively required the

z~

owner ofthe Property to operate a golf course on the Property.

2a

is

i
z
3

a

78.

On July 11, 2016, this Court entered an Order denying Defendants
Motion to Dismiss/Motion for Summary Judgment and granted Plaintiffs' Cross-Motion
for Partial Summary Judgment, ruling that the 1992 Covenants, Conditions and
Restrictions requires the operation ofa golf course on the subject Property.
79.

5

Defendant provided funds for and participated in a campaign to obtain the

6

approval of 51% ofthe Benefitted Persons for Defendant's proposed modification of the
1992 Covenants, Conditions and Restrictions. The campaign was unsuccessful, By

6

Apri( 2017, Defendant had obtained approvals from approximately 2,000 of the 3,564

9

Benefitted Persons necessary for 51%approval.

io
i

80.

When Defendant failed in its attempts to obtain 51% approval by

iz

Benefitted Persons of Defendant's proposed 1992 Covenants, Conditions and
Restrictions modification, Defendant took the position that it had determined a material

13

change in conditions affecting the Ahwatukee Lakes Golf Course or the 1992

14

Covenants, Conditions and Restrictions allowed for a modification ofthose covenants.
81.

IS

The alleged material change was that, because of changes in the golf

16

market and the deteriorated condition of the Ahwatukee Lakes Golf Course, the original

t~

purpose ofthe 1992 Covenants, Conditions and Restrictions could no longer be realized.

is

Tn other words, there was no longer a realistic possibility that astand-alone golf course

19

could ever operate on the property.
82.

zo

Wilson Gee testified the Ahwatukee Lakes Golf Course was worth

z~

approximately $1 million (plus or minus) as a stand-alone golf course in its current

zz

condition.

23

83.

Defendant's proposed modification to the 1992 Covenants, Conditions and

24

Restrictions (Exhibit 46) applies only to the Ahwatukee Lakes Golf Course to the 1992

zs

Covenants, Conditions and Restrictions and does not affect the Ahwatukee Country

26

Club.

2~
28

84.

Since the purchase of the Ahwatukee Lakes Golf Course, Defendant has

not complied with the 1992 Covenants, Conditions and Restriction.

G6

85.
z
3

Linda W. Swain ("Swain") is an owner of the real property located at

12815 S. 4151 Street, Phoenix, Maricopa County, Arizona (the "415 Street Residence").
86.

As an owner of the 415` Street Residence (which is within the Ahwatukee

4

master planned community as defined on Exhibit B of the 1992 Covenants, Conditions

s

and Restrictions), Swain is a Benefitted Person in accordance with the express

6

~ provisions ofthe 1992 Covenants, Conditions and Restrictions.
87.

S
9

Eileen T. Breslin ("Breslin") is an owner of the real property located at

4229 E. Sandia, Phoenix, Maricopa County, Arizona (the "Sandia Residence").
88.

As an owner of the Sandia Residence (which is within the Ahwatukee

io

master planned community as defined on Exhibit B of the 1992 Covenants, Conditions

ii

and Restrictions), Breslin is a Benefitted Person in accordance with the express

~z ,provisions ofthe 1992 Covenants, Conditions and Restrictions.
]3

89.

As Benefitted Persons, Swain and Breslin axe entitled to bring this action

14

seeking enforcement of each of the covenants, conditions and restrictions of the 1992

~s

Covenants, Conditions and Restrictions.

16

i~

90,

Plaintiffs did not unreasonably delay bringing this action. To the extent

there was delay, it did not materially affect the rights of Defendant.
Conclusions of Law

IS
l9

1.

The 1992 Covenants, Conditions and Restrictions constitute a contract

20

between the owner of the Property and the Benefitted Persons described in the 1992

zi

Covenants, Conditions and Restrictions.

zz
23
24

zs
z6
z~
za

2.

The intention of the 1992 Covenants, Conditions and Restrictions was that

a golf course would be operated on the Property.
3.

The 1992 Covenants, Conditions and Restrictions require the operation of

a golf course on the Property.
4.

As an owner of the 4151 Street Residence (which is within the Ahwatukee

master planned community as defined on Exhibit B of the 1992 Covenants, Conditions

and Restrictions), Swain is a Benefitted Person in accordance with the express
E
3

provisions of the 1992 Covenants, Conditions and Restrictions.
5.

As a Benefitted Person, Swain is entitled to bring this action seeking

a

enforcement of each ofthe covenants, conditions and restrictions ofthe 1992 Covenants,

5

Conditions and Restrictions.

6

6.

As an owner of the Sandia Residence (which is within the Ahwatukee ~

master planned community as defined on Exhibit B of the 1992 Covenants, Conditions
8

and Restrictions), Breslin is a Benefitted Person in accordance with the express ~

9

provisions ofthe 1992 Covenants, Conditions and Restrictions.

io

7.

As a Benefitted Person, Breslin is entitled to bring this action seeking ~

ii

enforcement of each ofthe covenants, conditions and restrictions of the 1992 Covenants,

tz

Conditions and Restrictions.

13

8.

The former owners of the Lakes Golf Course, Bixby, were contractually

is ~ obligated to comply with the each of the covenants, conditions and restrictions in the
15
16
~7
IS

1992 Covenants, Conditions and Restrictions.
9.

The $280,000.00 "annual rent' paid by AGP under the AGP Lease was a

7%return on investment to the owners of Bixby and not a "debt service" as such.
10.

By closing the Ahwatukee Lakes Golf Course in May 2013, shutting off

19

the water and electricity, removing the irrigation heads from the irrigation system,

zo

draining the lakes and failing to maintain the property so that it could be used for golfing

z~

or golfing practice, Bixby breached its contractual obligations under the 1992 CC&Rs.

zz

11.

By accepting the Special WarranTy Deed granting fee title to the

23

Ahwatukee Lakes Golf Course, Defendant bound itself to comply with each of the

24

covenants, conditions and restrictions In the 1992 Covenants, Conditions and

zs

Restrictions.

26

z~

12.

As the owner of the Ahwatukee Lakes Golf Course since June 19, 2015,

Defendant has been, and continues to be while Defendant remain owner, obligated to

zs

is

fully comply with each of the covenants, conditions and restrictions of the 1992
z ~ Covenants, Conditions and Restrictions.
3
4

13.

By its refusal to reopen and operate a golf course on the Property after its

purchase of the Property from Bixby, Defendant breached the 1992 Covenants,

s ~ Conditions and Restrictions.
6

14.

Because TTLC knowingly and voluntarily purchased the Lakes Golf

Course with the contractual obligation to operate a golf course on it for the benefit of
S

Plaintiffs, and others as described in the 1992 Covenants, Conditions and Restrictions as

9

Benefitted Persons, as the facts show above, they were bound to the promise of

~a

operating a golf course. Because Defendant lacked the intent to operate a golf course

i

while knowing it had the contractual obligation, TTLC has breached its covenant of

tz

good faith and fair dealing, which required them to not impair the rights of the other to

13

receive the benefits ofthe agreement.

is

15.

In Arizona, interpretation of a contract is a question of law for the court.

is

Rand v, Porsche Fin. Services, 216 Ariz. 424, 167 P.3d 111, 121 (App. 2007);

16

Grosvenor Holdings v. Figueroa, 222 Ariz. 58&, 592, 218 Pad 1045, 1050(App. 2009).

i~

It has long been the rule that an interpretation which gives effective meaning to all

18

provisions of a contract is preferable to an interpretation which leaves a part of the

19

contract ineffective. Reserve Insurance Co. v. Staats, 9 Ariz. App. 410, 412, 453 P.2d

20

239, 241 (1969). See also Taylor v. State Farm Mut. Auto Ins. Co., 175 Ariz. 148, 158,

zi

854 P.2d 1134, 1144 (1993) (a contract should not be interpreted to not render a

zz

provision superfluous); Allen v. Honeywell Retirement Earnings Plan, 382 F.Supp.2d

23

1139, 1165 (b. Ariz. 2005)(rules of contract construction "disfavors constructions that

za

nullify a contract term or render a term superfluous or redundant').

zs

16.

In interpreting restrictive covenants, the court reads the language used in

26

its ordinary sense, construing it in light ofthe circumstances surrounding its formulation,

z~

and with the idea of carrying out its object, purpose, and intent. Cypress on Sunland

zs

Homeowners Assn v. Orlandini, 227 Ariz, 288, 297, ¶ 31, 257 P.3d 1168, 1177 (App.

19

2011)(citing Powell, 211 Ariz. at 557, ¶ 16, 125 P.3d at 377). "We are not bound by the
z

`strict and technical meaning of the particular words' in the declaration." Id. (citing

3

Powell, 211 Ariz, at 556, ¶ 10, 125 P.3d at 376). Instead,"`the function of the law is to

a

ascertain and give effect to the likely intentions and legitimate expectations of the

s .,parties' who create the covenants." Saguaro Highlands Cmty. Assn v. Biltis, 224 Ariz.
6

294, 296, ¶ 6, 229 Pad 1036, 1038(App. 2010)(quoting Powell, 211 Ariz, at 556-57, ¶
13, 125 P.3d at 376-77)

s
9

io
~i

17~

The plain language of paragraph 6 allows for the owners of the "Property"

to file a petition with the Maricopa County Superior Court and request approval of what
the owners conclude constitutes a "material change."
18.

Under paragraph 6, the owner's determination of "material change" is not

iz

binding or even entitled to deference. By requiring the owner to petition the Maricopa

13

County Superior Court the drafters indicated their intention that the established legal

is

rules for modification of a restrictive covenant would apply. Had the drafters intended

is

for the court to employ some different standard of review, the document would offer

16

some guidance concerning what that standard might be. But the document provides no

i~

such guidance.

IS

19.

Tf the intention of paragraph 6 of the 1992 Covenants, Conditions and

l9

Restrictions was to vest the owner of the "Property" with the power to decide whether

zo

there was a material change to the "Property" or to the 1992 CC&Rs, it could have

zi

stated just that (i.e. that the owner's determination was binding) and paragraph 6 would

Zz

not have needed to include the phrase "may petition the Maricopa County Superior

23

Court ...for modification of the Declaration."

Za

20.

Tierra Ranchos HOA v. Kitchukov, 216 Ariz. 195, 165 P.3d 173 (App.

zs

2007), found the Restatement of Servitudes applied in determining the level of discretion

26

that a homeowner association has when making discretionary decisions. The Tierra

z~

Ranchos court specifically held the Restatement of Servitudes is not used to adjudicate

za

interpretation of restrictive covenants.

20

~
z

21.

Paragraph 6 of the 1992 Covenants, Conditions and Restrictions does not

s

provide for a discretionary decision by a representative of the homeowners who are
parties to the applicable restrictive covenants. Tierra Ranchos HOA therefore does not

a

apply.

s

22.

In Arizona, equity will enforce terms of restrictive covenants unless
b changes in sixrrounding areas are so fundamental or radically alters tt►e original

~ commitment or frustrates its purpose, Decker v. Hendricks, 97 Ariz, 36, 41, 396 P.2d
s 609, 612(1964).
v
io
ii

23.

Equitable remedies are a matter of grace and not a right, and should not be

used when claimants were clearly aware of the restrictions and expend large sums of
money on the gamble that the restrictions would nat be enforced against them.

iz Camelback Del Este Homeowners Assn v. Warner, 156 Ariz. 21, 26, 749 P.2d 930, 935
i3 (App. 1987); Decker v. Hendricks, 97 Ariz, 36,4142,396 P.2d 609,612(1964).
is

24.

The equities surrounding the restrictive covenant on the Lakes Golf Course

~ s do not favor defendant 1"I'LC for the following reasons:(i) its voluntary purchase ofthe
~6 Lakes Golf Course with knowledge that the Property was subject to a restrictive
covenant and in litigation over the issue; (ii) from its due diligence, TTLC could see for
~8 itself that the Lakes Golf Course had been severely neglected; (iii) notwithstanding its
19 knowledge of(and that it was bound by)the restrictive use provision, TTLC represented
Zo to the Caurt that it did not intend to operate the Lakes Golf Course;(iv) TTLC agreed to
21

pay $9 million based on its due diligence economic study reflecting the profitability of a

zz residential development on the Lakes Golf Course;(v) TTLC purchased the golf course
z3

with the knowledge that the Lakes Golf Course would have to be totally reconstructed if

24 Defendant was required to operate a golf course; (vi) TTLC had no intention of ever
zs reconstructing and operating a golf course (which the prior owner had shut offthe water
26 and electricity to and cannibalized the hundreds of sprinkler heads); (vii) the non2~ recourse structure of the Promissory Note was negotiated in consideration of the risk of
z8 not being able to successfully modify the 1992 Covenants, Conditions and Restrictions

z~

~
z

and the costs incurred in the process; (viii) although Defendant was bound to comply
with the 1992 Covenants, Conditions and Restrictions throughout the period it owned

3 the Ahwatukee Lakes Golf Course, it chose not to do so, but to resist its obligation to
4 comply with those restrictive covenants;(ix) TTLC only turned to its "material change"
5 tactic after it failed to convince 51% of the Ahwatukee households to approve an earlier
6 proposed modification; and (x)if Defensiant loses this action, it can escape its obligation
~ to Bixby through the non-recourse provision ofthe underlying promissory note,
8

ZS•

The inequitable conduct of Bixby Properties, which largely created the

9 alleged hardship to the property owner, also cuts against equitable relief for Defendant.
~o

At the very least, Defendant had reason to know that Bixby's actions substantially

~~

contributed to the conditions that made restoration of the golf course economically

12

unfeasible. Bixby, not TTLC, will bear most of the economic burden if the transaction

13 fails. That result, frankly, will not be unfair.
is
is

26.

Arizona recognizes that restrictive covenants may be enforced by

injunctive relief. Continental Oil Co, v. Fennemore, 38 Ariz. 277, 281, 299 P. 132, 133

is (1931).
»
is

27.

Because paragraph 4 of the 1992 Covenants, Conditions and Restrictions

provide that a breach of the restrictive covenant can be remedied by injunctive relief,

i9 Plaintiffs are entitled to injunctive relief to enforce the 1992 Covenants, Conditions and
zo
z~

Restrictions.
28.

Under paragraph 4 of the 1992 Covenants, Conditions and Restrictions, in

22 an action to enforce those covenants, conditions and restrictions Beneftted Persons are
zs

entitled to reimbursement of all court costs and reasonable attorneys' fees from any

24

defaulting owner, occupants or users.

2s

---\

Dated this 2nd day of January 2018.

,~ a

z6
27

`fin R. Hannah
ge ofthe Superior Court

Z$

2z

